                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00239-127


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at
        VA Northern Indiana
        Health Care System
        Fort Wayne, Indiana




April 18, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                  CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                        CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                  CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of March 3, 2014, at the Peru, IN,
CBOC, which is under the oversight of the VA Northern Indiana Health Care System
and Veterans Integrated Service Network (VISN) 11.

Review Results: We conducted four focused reviews and had no findings for the
Environment of Care review. However, we made recommendations in the following
three review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently complete diagnostic assessments for patients with a positive
     alcohol screen.

	   Registered Nurse Care Managers receive motivational interviewing and health
     coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation is completed at each episode of care where
     the newly prescribed fluoroquinolone is administered, prescribed, or modified.

	   Consistently provide        written   medication    information     that   includes    the
     fluoroquinolone.

	   Provide medication counseling/education that includes the fluoroquinolone.

Designated Women’s Health Providers’ Proficiency.               Ensure that all Designated
Women’s Health Providers:

	   Maintain proficiency as required for the provision of women’s health care.




VA OIG Office of Healthcare Inspections                                                       i
                  CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–19, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                      CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at the randomly selected CBOC that
had not been previously inspected.a Details of the targeted study populations for the
AUD, MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                           1
                     CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN


Table 1. CBOC/PCC Focused Reviews and Study Populations
      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                            CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the Peru CBOC. The
table below shows the areas reviewed for this topic. The facility generally met requirements.
We made no recommendations.
Table 2. EOC
NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       mental health clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.



VA OIG Office of Healthcare Inspections                                                                 3
                            CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN


NM               Areas Reviewed (continued)                                 Findings
       PII is protected on laboratory specimens
       during transport so that patient privacy is
       maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       JC standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.




VA OIG Office of Healthcare Inspections                                                                 4
                            CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 15 (38 percent) of 39 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 3 of 24 RN Care Managers did
       received motivational interviewing training        not receive motivational interviewing training
       within 12 months of appointment to PACT.           within 12 months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 5 of 24 RN Care Managers did
       received VHA National Center for Health            not receive health coaching training within
       Promotion and Disease Prevention-approved          12 months of appointment to PACT.
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that Community Based Outpatient Clinic/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                    5
                            CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN


2. We recommended that Community Based Outpatient Clinic/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing and health coaching training within
12 months of appointment to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                                 6
                            CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 14 (37 percent) of 38 patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that 10 (26
       medications was provided at the end of the        percent) of 38 patients received written
       outpatient encounter.                             information that included the fluoroquinolone.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   10 (26 percent) of 38 patient EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendations

3. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

4. We recommended that staff consistently provide written medication information that
includes the fluoroquinolone.

5. We recommended that staff provide medication counseling/education that includes the
fluoroquinolone.




VA OIG Office of Healthcare Inspections                                                                     7
                            CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The areas marked as NM did not meet applicable
requirements and needed improvement.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
 X     CBOC and PCC DWHPs maintained                    Twelve of the 20 DWHPs with patient panels
       proficiency requirements.                        comprised of less than 10 percent women
                                                        veterans at the CBOC and/or PCCs did not have
                                                        evidence of implementation of alternative plans
                                                        to ensure ongoing proficiency in women’s health
                                                        care.

       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.

Recommendation

6. We recommended that clinical executive/primary care leaders ensure that Community
Based Outpatient Clinic/Primary Care Clinic Designated Women’s Health Providers maintain
proficiency as required for the provision of women’s health care.




VA OIG Office of Healthcare Inspections                                                                 8
                                                                CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                                                                  Appendix A


                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                  Uniquesd                                    Encountersd

                            Station                   CBOC
     Location     State                Localitye                    MHg        PCh        Otheri       All       MHg         PCh       Otheri       All
                               #                       Sizef
    South Bend      IN      610GA        Urban         Large       1,222       8,724      4,211      9,000       7,466     17,694      12,181     37,341
    Muncie          IN      610GB        Urban       Mid-Size       586        3,940      2,382      4,302       3,693      9,237      7,741      20,671
    Goshen          IN      610GC        Urban       Mid-Size       659        3,294      1,797      3,539       3,052      7,963      5,050      16,065
    Peru            IN      610GD        Rural       Mid-Size       255        2,378      1,884      2,882       1,201      5,477      6,259      12,937




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx 

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – Mental Health Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician.

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                    9
                       CBOC and PCC Reviews VA Northern Indiana Health Care System, Fort Wayne, IN


                                   CBOC Services Provided 

In addition to primary care integrated with women’s health and MH care, the CBOCs
provide various specialty care, ancillary, and tele-health services. The following table
lists the services provided at each CBOC.j

                                                                                                Tele-Health
       CBOC               Specialty Care Servicesk             Ancillary Servicesl
                                                                                                 Servicesm
South Bend                 Anti-Coagulation Clinic                Radiology                  Tele Primary Care
                                Dermatology               Diabetic Retinal Screening
                                                                  Laboratory
                                                              MOVE! Programn
                                                                 Social Work
Muncie                          Dermatology                       Pharmacy                   Tele Primary Care
                                                                  Radiology
                                                               MOVE! Program
                                                             Prosthetics/Orthotics
                                                                  Laboratory
Goshen                                ---                         Radiology                  Tele Primary Care
                                                               MOVE! Program
Peru                                  ---                         Pharmacy                   Tele Primary Care
                                                               MOVE! Program
                                                             Prosthetics/Orthotics
                                                                  Radiology
 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                         10
                                                                             CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                                                                               Appendix B

                                                                       PACT Compass Metrics
                                                    FY 2013 Average 3rd Next Available in PC Clinics
                                18.0
                                16.0
    Average Number of Days




                                14.0
                                12.0
                                10.0
                                  8.0
                                  6.0
                                  4.0
                                  2.0
                                  0.0
                                                                       N. Indiana HCS‐
                                                     N. Indiana HCS‐                      South Bend
                                        VHA Total                         Ft. Wayne                     Muncie (610GB)   Goshen (610GC)        Peru (610GD)
                                                      Marion (610)                         (610GA)
                                                                           (610A4)
                             OCT FY13     14.6             0.6               0.1             2.2              0.3               2.5
                             NOV FY13     15.2             0.9               0.3             1.3              1.3               2.0
                             DEC FY13     13.8             0.3               0.3             2.9              1.1               1.3
                             JAN FY13     14.0             0.4               0.2             2.4              0.7               1.8
                             FEB FY13     14.8             0.5               0.2             1.8              0.9               1.6
                             MAR FY13     13.3             0.6               0.2             3.3              2.3               1.8
                             APR FY13     14.4             0.5               0.2             1.4              1.5               0.6
                             MAY FY13     16.0             0.6               0.3             1.5              1.0               1.6
                             JUN FY13     14.2             0.4               0.1             1.6              0.1               1.4
                             JUL FY13     14.6             0.4               0.2             1.6              1.1               1.5
                             AUG FY13     15.7             0.9               0.4             1.8              0.9               2.7
                             SEP FY13     13.4             0.6               0.1             1.9              0.5               1.4

Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment or
one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the division
level. Blank cells indicate the absence of reported data.

 VA OIG Office of Healthcare Inspections                                                                                                                       11
                                                                 CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                    12
                                                                CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s assigned
primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of primary care
encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                 13
                                                                  CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from this
metric.

VA OIG Office of Healthcare Inspections                                                                                                                      14
                   CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                     Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       April 1, 2014

          From: 	      Director, Veterans in Partnership Healthcare Network 

                       (10N11)


       Subject: 	      CBOC and PCC Reviews of the VA Northern Indiana
                       Health Care System, Fort Wayne, IN

             To: 	     Director, Kansas City Office of Healthcare Inspections
                       (54KC)

                       Director, Management Review Service
                       (VHA 10AR MRS OIG CAP CBOC)



       1. I concur with the findings and recommendations in the report of the
       CBOC and PCC reviews of the VA Northern Indiana Healthcare System.

       2. If you have any questions regarding our responses and actions to the
       recommendations in the report, please contact me.




       Thank You

       (original signed by:)

       Paul Bockelman, FACHE
       Network Director, VISN 11




VA OIG Office of Healthcare Inspections                                                       15
                   CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       April 1, 2014

          From:        Director, Northern Indiana Healthcare System (610/00)

       Subject:        CBOC and PCC Reviews of the VA Northern Indiana
                       Health Care System, Fort Wayne, IN

             To:       Director, Veterans in Partnership Healthcare Network
                       (10N11)



       1. I concur with the VA Northern Indiana Healthcare System’s response
       and action plans as detailed within this report.


       Thank you

       (original signed by:)

       Denise M. Deitzen, Director




VA OIG Office of Healthcare Inspections                                                       16
                  CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1.            We recommended that Community Based Outpatient
Clinic/Primary Care Clinic staff consistently complete diagnostic assessments for
patients with a positive alcohol screen.

Concur

Target date for completion: April 30, 2014

Facility response:     The facility will educate the Community Based Outpatient
Clinic/Primary Care Clinic staff regarding the Veterans Health Administration Alcohol
Use Disorders Identification Test Consumption Questions (AUDIT-C) documentation
requirements for further treatment options that are to be offered to patients. The
Positive Alcohol Use Disorders Identification Test Consumption Questions (AUDIT-C)
Clinical Reminder was adjusted to ensure that patients with a positive alcohol score
receive further diagnostic assessments in Community Based Outpatient Care/Primary
Care Clinics to determine the need for intervention. Training has been provided to staff
and compliance with completion of diagnostic assessments for patients with a positive
alcohol score will be monitored monthly. Monthly monitoring results will be reported to
the Clinical Executive Board.

Recommendation 2.         We recommended that Community Based Outpatient
Care/Primary Care Clinic Registered Nurse Care Managers receive motivational
interviewing and health coaching training within 12 months of appointment to Patient
Aligned Care Teams.

Concur

Target date for completion: April 3, 2014 and on-going

Facility response: All current Community Based Outpatient Care/Primary Care Clinic
Registered Nurse Care Managers who have not received prior motivational interviewing
and health coaching training within 12 months of appointment to Patient Aligned Care
Teams have been scheduled to complete training by close of business on April 3, 2014.
An annual 2014 training schedule was previously developed to include an adequate
number of courses to ensure on-going training opportunities for all care sites for both
motivational interviewing and health coaching. Compliance with training of Patient
Aligned Care Team staff will be monitored by the Patient Aligned Care Team Steering
Committee and will be tracked in the Talent Management System. A process was
developed, including an Excel spreadsheet to track dates of assignment to a Patient
Aligned Care Team, to ensure that newly hired Community Based Outpatient


VA OIG Office of Healthcare Inspections                                                      17
                  CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN


Care/Primary Care Clinic Registered Nurse Care Managers receive in-person
motivational interviewing and health coaching training within 12 months of assignment
to a Patient Aligned Care Team.

Recommendation 3.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: April 23, 2014

Facility response: All providers caring for outpatients will be educated regarding the
need to complete medication reconciliation at each episode of care where a newly
prescribed fluoroquinolone was administered, prescribed, or modified. This training will
include a review of the medication reconciliation policy in addition to specific training
related to fluoroquinolones and other antibiotics.

Compliance with documenting that medication reconciliation was completed at each
episode of care where the newly prescribed medication was administered, prescribed,
or modified will be monitored monthly. Monthly auditing results will be reported to the
Clinical Executive Board.

Recommendation 4.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: April 14, 2014

Facility response: The medication reconciliation reminder dialogue will be updated to
include documentation that written medication information was provided to the Veteran
regarding new fluoroquinolone medications ordered. Handouts have been created and
will be available for providers to give to Veterans.

Recommendation 5.             We recommended that                staff   provide    medication
counseling/education that includes the fluoroquinolone.

Concur

Target date for completion: April 23, 2014 and ongoing

Facility response: All providers caring for outpatients will be educated regarding the
need for medication counseling and education regarding fluoroquinolone prescriptions.
The Medication Reconciliation Clinical Reminder will be updated to include
documentation of patients’ counseling and education about newly prescribed
medications. All providers caring for outpatients will be educated about the updated
clinical reminder.


VA OIG Office of Healthcare Inspections                                                      18
                  CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN


Compliance with documenting patient medication counseling and education that
includes fluoroquinolones will be monitored monthly. Monthly auditing results will be
reported to the Clinical Executive Board.

Recommendation 6. We recommended that clinical executive/primary care leaders
ensure that Community Based Outpatient Care/Primary Care Clinic Designated
Women’s Health Providers maintain proficiency as required for the provision of women’s
health care.

Concur

Target date for completion: May 31, 2014

Facility response: All designated women’s health providers will be required to complete
2 hours of women’s health specific Continuing Medication Education every year.
Primary Care is working with the Credentialing Department to request this be
documented and monitored as part of the re-credentialing review of all Designated
Women’s Health Providers’ performance every 2 years. The Women’s Health Program
Manager will monitor and report on a monthly basis to the Clinical Executive Board.




VA OIG Office of Healthcare Inspections                                                      19
                  CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Larry Selzler, MSPT, Team Leader
Contributors            Cindy Niemack-Brown, CMSW, LMHP
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Stephanie Hensel, RN, JD
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Laura Snow, LMHP
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      20
                  CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Veterans in Partnership Healthcare Network (10N11)
Director, VA Northern Indiana Health Care System (610/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Daniel Coats, Joe Donnelly, Rob Portman
U.S. House of Representatives: Susan Brooks, Robert Latta, Luke Messer, Todd
 Rokita, Marlin Stutzman, Jackie Walorski


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      21
                      CBOC and PCC Reviews at VA Northern Indiana Health Care System, Fort Wayne, IN
                                                                                        Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
